No.
IN THE

Supreme Court Of The United States

NORMAN D. COX, JR.
Pro Se Petitioner,
v.
THE MONEY SOURCE, INC.,
Respondent.

On Petition For Writ Of Certiorari
To The SUPREME COURT OF NEW JERSEY

PETITION FOR WRIT OF CERTIORARI

NORMAN D. COX JR
Pro Se Petitioner
212 78th STREET
NORTH BERGEN, NJ 07047
(831) 233-2226

QUESTION(S) PRESENTED
1. Did the Trial Court err in or abuse it’s discretion by
entering default judgment against Petitioner based
upon the Respondent’s defective Service of Process
that was served upon “Neville Cox” (of no relations
to Appellant) without first conducting a traverse
hearing?
Yes.
2. Did the Trial Court err in or abuse it’s discretion in
failing to vacate the default judgment on the
grounds ef newly discovered evidence by
overlooking the laws and facts? Petitioner was
never served the notice of complaint and did not
know that an action had risen to the level of
Default.
Yes.
3. Has the Trial Court erred or abused it’s discretion
in failing to vacate or set aside the default
judgment on the grounds of excusable neglect
pursuant to R. 4:50-1(a)?
Yes.

PARTIES TO PROCEEDING AND RELATED
CASES
IX] All parties do not appear in the caption of the case
cover page. A list of all parties to the proceeding in the
court whose -judgment is the subject-of this -petition is as
follows^
Clerk of the Supreme Court of New Jersey, Hughes
Justice Complex, P.O. Box 970, Trenton, NJ 08625*0970
Phone: (609) 815*2955
Clerk of the Superior Court of New Jersey, Appellate
Division, Hughes Justice Complex, P.O. Box 006, Trenton,
New Jersey 08625*0006. Phone: (609) 815*2950
Clerk of the Superior Court of New Jersey, Chancery
Division, 583 Newark Avenue, 2nd Floor, Jersey City, New
Jersey 07306. Phone: (609) 815*2950
Stern & Eisenberg, P.C., Attorney for Respondent, 1040
N. Kings Highway, Suite 407, Cherry Hill, New Jersey
-08034. Phone- (609) 397*9200
The Money Source, Inc., 500 S. Broad Street, Suite 100A,
Meriden, Connecticut 06450. Phone- (866) 867*0330
Honorable Marybeth Rogers, 583 Newark Avenue, 4th
Floor, Jersey City, New Jersey 07306.
Phone: (201) 795*6677
Honorable Jeffrey Jablonski, 583 Newark Avenue, 2nd
Floor, Jersey City, New Jersey 07306
Phone.: (201) 748*4400

TABLE OF CONTENTS
Page(s)
QUESTIONS PRESENTED

1

PARTIES TO PROCEEDING AND RELATED
CASES

n

TABLE OF AUTHORITIES

vn

OPINIONS BELOW

2

JURISDICTION

3

STATUTORY AND CONSTITUTIONAL
PROVISIONS INVOLVED

4

STATEMENT OF THE CASE

6

A. Petitioner respectfully requests that this
Court reverse the trial court’s March 23, 2018
Order denying his Motion to Vacate and remand
for further case management scheduling and
trial. And, the June 13, 2019 denial of the
Supreme Court of New Jersey. And, the
October 24, 2019 denial of the Superior Court of
New Jersey Chancery Division
REASONS FOR GRANTING THE PETITION

7

CONCLUSION

13

TABLE OF CONTENTS - Continued
Page(s)
APPENDIX A:

Decision of State Court of

Appeals, dated March 4, 2019
APPENDIX B:

la

Order of State Court of

Appeals Denying Motion for
Reconsideration, -dated March 1, 2019
APPENDIX C:

-8a

Order of State Court of

Appeals Denying Motion for Stay Pending
Appeal, dated February 11, 2019
APPENDIX D:

9a

Order of State Court of

Appeals Denying Permission to File
Emergent Motion, dated February 7, 2019
APPENDIX E:

10a

Decision of State Trial Court

Denying Defendant’s Motion to Vacate
Final Judgment by Default, dated
March 23, 2018
APPENDIX F:

11a

Order of State Trial Court

Denying Motion to Stay Sheriff Sale
Pending Appeal, dated June 6, 2018

12a

TABLE OF CONTENTS - Continued
Page(s)
APPENDIX G:

Order of State Trial Court

Granting Stay of Sheriffs Sale in Order to
File an Application Before the Appellate
Division, dated June 7, 2018
APPENDIX H:

13a

Decision of State Supreme

Court Denying Review, dated
June 13, 2019
APPENDIX!:

14a

Order of State Supreme

Court Denying Rehearing, dated
August 9, 2019
APPENDIX J:

15a

Order of State Trial Court

Denying Defendant’s Emergent Motion
to Stay Sheriff Sale Pending Writ of
Certiorari, dated November 22, 2019
APPENDIX K:

16a

Order of State Trial Court

Denying Defendant’s Emergent Motion
to Stay Sheriff Sale Pending Writ of
Certiorari, dated November 24, 2019

17a

TABLE OF AUTHORITIES
CASES
Page(s)
Summers v. Superior Court (1959), supra

4

Roberts v. Roberts (1966) supra

4

In People v. One 1941 Chrysler Sedan (1947)
81 Cal. App. 2d 18, 21-22 [183 P.2d 368]

5

Sabariego v Maverick, 124 US 261, 31 L Ed 430,
8 S Ct 461

5

Klugh v. U.S., 620 F.Supp., 892 (D.S.C. 1985)

5

Johnson v. Zerbst, 304 U.S. 458 S Ct.1019;

5

Pure Oil Co. v. City of Northlake, 10 Ill. 2D 241,
245, 140 N.E. 2D 289 (1956)

5

Hallberg v. Goldblatt Bros., 363 Ill. 25 (1936)

5

McNeill v. New York City Housing Authority,
719 F. Supp 233, 254 (S.D.N.Y. 1989)

5

Jiggetts v. Perales, 202 A.D.2d 341, 342, 609
N.Y.S.2d 222, 224 (1st Dept. 1994)

5

Selective Ins. Co. of Am. v. Rothman,
208 N.J. 580, 586 (2012)

7

Nieder v. Royal Indem. Ins. Co.62 N.J. 229,
234 (1973)

7

Mancini v. E.D.S., 132 N.J. at 335

9

Osborn v. Bank of the United States,
22 U.S. (9 Wheat.) 738 (1824)

10

TABLE OF AUTHORITIES - Continued
Page(s)
Franchise Tax Board v. Construction
Laborers Vacation Trust, 463 U.S. 1 (1983)

10

Merrell Dow Pharmaceuticals, Inc. v. Thompson,
478 U.S. 804 (1986)

10

Gully v. First National Bank in Meridian,
299 U.S. 109, 117 (1936)

10

S.E.C. v. Elliott, 953 F.2d 1560, 1582
(11th Cir. 1992)

10

United States v. Miller, 197 F.3d 644, 648
(3rd Cir. 1999)

10

Poling v. K. Hovnanian Enterprises,
99 F.Supp.2d 502, 506-07 (D.N.J. 2000)

10

Vega v. Johnson, 149 F.3d 354 (5th Cir. 1998)

10

U.S. v. Sanchez, 88 F.3d 1243 (D.C.Cir. 1996)

10

Jameson v. Great Atl. & Pac. Tea Co.,
363 N.J. Super. 419, 425 (App. Div. 2003)

11

Bank v. Kim, 361 N.J. Super. 331, 336
(App. Div. 2003)

11

Berger v. Paterson Veterans Taxi Serv.,
244 N.J. Super. 200, 205 (App. Div. 1990)

11

Coryell, L.L.C. v. Curry, 391 N.J. Super.

72, 80 (App. Div. 200

11

TABLE OF AUTHORITIES - Continued
Page(s)
Arrow Mfg. Co. v, Levinson, 231 N.J. Super.
527, 534 (App. Div. 1989)

11

Foster v. New Albany Mach. & Tool Co.,
63 N.J. Super. 262, 269-70 (App. Div.I960)

11

Garza v. Paone, 44 N.J. Super. 553, 557-58
(App. Div. 1957)

11

Bascom Corp. v. Chase Manhattan Bank,
363 N.J. Super. 334, 340 (App. Div. 2003)

12

Jackson Constr. Co. v. Ocean Twp., 182 N.J.
Super. 148, 161, 3 N.J. Tax 296, 309

12

STATUTES AND RULES
Page(s)
Rule 4:50-l(a)(b)(c)

6, 9-12

Rule 4:50-10

6

Rule 4:4-4(a)(l)

7

Rule 4:4-4(a)(l)(4)

7

Rule 6'-2*3(d)

7

Rule 4:4-3(b)

8

Rule 4:50-1(d)

10,11

Rule 4:50-2

12

IN THE

Supreme Court Of The United States
No.

NORMAN D. COX, JR.,
Pro Se Petitioner,
v.
THE MONEY SOURCE, INC.,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF NEW JERSEY
PETITION FOR WRIT OF CERTIORARI
Norman D. Cox Jr. respectfully petitions for a writ
of certiorari to review the judgment of the Supreme Court
of New-Jersey Appellate Division and-Superior Court of
New Jersey Chancery Division.

2

OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of -the -United States court of appeals
appears at Appendix
to the petition and is
[ ] reported at.
> or,
[ ] has been designated for publication but is not yet
reported; or,
[ ] is unpublished.
The opinion of the United States district Court
appears at Appendix to the petition and is
[ ] reported at
* or,
[ ] has been designated for publication but is not yet
reported; or,
[ ] is unpublished.
[X] For cases from state courts:
The opinion of the highest state court to review the
merits appears at Appendix “H” to the petition and is
or,
[ ] reported at
[ ] has been designated for publication but is not yet
reported; or,
[X] is unpublished.
The opinion of the court appears at Appendix “H”
to the petition and is
[ ] reported at
.> or,
[ ] has been designated for publication but is not yet
reported; or,
[X] is unpublished.

3

JURISDICTION
[ ] For cases from federal courts^
The date on which the United States Court of
Appeals decided my case was___________________
t ] No petition for rehearing was timely filed in my
case.
A timely petition for rehearing was denied by
the United States
Court of Appeals on the
following date;
_____ , and a copy of the
order denying rehearing appears at Appendix.
[]
An extension of time to file the petition for a
writ of certiorari was granted to and including (date) on
(date) in Application No.___ A_____ .
[]

The jurisdiction of this Court is invoked under 28
U. S. C. § 1254(1).
[ ] For oases from state courts:
The date on which the highest state court decided
my case was June 13, 2019.
[X] A timely jpetition for rehearing was
thereafter denied on the following date: August 9, 2019,
and a copy of the order denying rehearing appears at
Appendix “I”.
[]
An extension of time to file the petition for a
writ of certiorari was granted to and including_________
(date) on
.(date) in Application No.___ A____.
The jurisdiction of this Court is invoked under 28
U. S. C. § 1257(a).

4
STATUTORY AND CONDITIONAL PROVISIONS
INVOLVED
5th Amendment of the United States Constitution
8th Amendment of the United States Constitution
14th Amendment of the United States Constitution and
Procedural Due Process
Petitioner asserts that it is a violation of due process to
impose a default judgment against a defendant when the
defendant has not been served. In the case of default
judgments under the Hague Convention, due process is
defined under Article 15. Since the Convention is a treaty,
under the Supremacy Clause of the Constitution, the
Hague Service Convention due process requirements for
issuing a default judgment take precedence over state and
federal requirements.
More specifically, the New Jersey court stated that it was
not “convinced that a constitutional inquiry is
inappropriate or unnecessary where the Hague
Convention applies. Indeed, a due process inquiry is
necessary to ensure the veracity of the certificate when
the underlying facts are contested.”
The lower Court exceeds its jurisdiction^
“A judgment is void on its face if the trial court exceeded
its jurisdiction by granting relief that it had no power to
grant. Jurisdiction cannot be conferred on a trial court by
the consent of the parties.” See, Summers v. Superior
Court (1959), supra,; Roberts v. Roberts (1966) supra,)

5
Thus, the fact that a judgment is entered .pursuant to
stipulation does not insulate the judgment from attack on
the ground that it is void. In People v. One 1941
Chrysler Sedan (1947) 81 Cal. App. 2d 18, 21-22 {188 P.2d
368]

A judgment of a court without hearing the party or giving
him an opportunity to be heard is not a judicial
determination of his rights. Babariego v Maverick. 124 .US
261, 31 L Ed 430, 8 S Ct 461, and, is not entitled to
respect in any other tribunal.
“Judgment is a void judgment if court that rendered
judgment lacked jurisdiction of the subject matter, or of
the parties, or .acted in a manner inconsistent with .due
process, Fed. Rules Civ. Proc., Rule 60(b)(4), 28
U.S.C.A.; U.S.C.A. Const. Amend. 5 - Klugh v. U.S.. 620
F.Supp., 892 (D.S.C. 1985). Where Due Process is denied,
the case is void, Johnson v. Zerbst, 304 U.S. 458 S
Ct.1019; Pure Oil Co. v. City of Northlake. 10 Ill. 2D 241.
245. 140 N.E. 2D 289 (1956) Hallberer v. Goldblatt Bros..
363 Ill. 25 (1936).
Irreparable Injury: It is difficult to imagine many injuries
less capable of adequate monetary redress than the loss of
.one's -home. Even the mere "threat of eviction and the
realistic prospect of homelessness" constitute irreparable
injury sufficient for preliminary injunctive relief. McNeill
v. New York .City Housing Authority. 719 F. Supp 233.
254 (S.D.N.Y. 1989). See Jiggetts v. Perales. 202 A.D.2d
341. 342. 609 N.Y.S.2d 222. 224 (1st Dent. 1994)
("Defendant" established entitlement to preliminary
injunctive relief pending determination of the underlying
action by demonstrating the irreparable harm of a
possible eviction if the relief sought was not granted").

6
STATEMENT OF THE CASE
The principal reasoning offered by the trial court for
denying Petitioner’s Motion to Vacate is its conclusion
that Petitioner failed to establish excusable neglect or
extraordinary circumstances and that Petitioner’s motion
“does not engender any sort of constitutionality or
approach even a consideration of any sort of federal
question for which [this] Court would be most concerned”.
See Page 15 of the Court Transcript of Motion and
Decision dated October 24, 2019 initiating time noted
2:26pm fl6'9.
This interpretation is flawed.
Petitioner respectfully submits that the trial court’s
denial of his Motion to Vacate was an abuse of discretion
and should be reversed. The trial court should not have
entered default judgment against Petitioner on the
foreclosure claims made by plaintiff without first
conducting a hearing on the issue of service of process.
The trial court also abused its discretion in refusing
to vacate the default judgment under either R. 4:50- 1(a)
based upon excusable neglect, or R. 4:50- 1(f) based upon
exceptional circumstances due to the questionable merits
of respondent’s service of process.
Accordingly, and for the reasons set forth below,
Petitioner respectfully requests that this Court reverse
the trial court’s March 23, 2018 Order denying his Motion
to Vacate and remand for further case management
scheduling and trial. And, the June 13, 2019 denial of the
Supreme Court of New Jersey. And, the October 24, 2019
denial of the Superior Court of New Jersey Chancery
Division.

7

REASONS FOR GRANTING THE PETITION
I.

The trial Court abused its discretion in failing to
vacate the default judgment of a foreclosure
proceeding on the grounds of newly discovered
evidence, Petitioner did not know that an action
had risen to the level of default.

The November 7, 2016, affidavit of service is
newly discovered evidence. I was not served and,
therefore, did not receive the summons, complaint and
notices. Personal service was improperly served at an
address other than Appellant’s known address, the
premises of this action and to a person that your
Appellant does not know, thus, in violation of Rule 4^4*
4(a)(1)(4) and R. 6:2-3(d).
Further, had service of process of the summons,
complaint and foreclosure been served upon me or
someone I actually know I would have had an
opportunity to prepare a defense that would have
probably altered the judgment or order. However, it
was impossible for me to defend this action because,
even by due diligence I could not have discovered in
time that a foreclosure complaint was pending because
I do not know the party the defendants claimed to have
served. See, Selective Ins. Co. of Am. v. Rothman. 208
N,J. 580, 586 (2012) (quoting Nieder v. Royal Indem.
Ins. Co.. 62 N.J. 229, 234 (1973)). Please refer to
Plaintiffs affidavit of service and affidavit of due
diligence.
The defendant filed a motion to vacate due to
defective service of process at a previous address of
Petitioner in New York rather than defendant’s primary
New Jersey address, thereby, absolving Petitioner of an
opportunity to defend against the action or to prepare a

8

defense without notice. Your defendant filed an Affidavit
in Opposition to Plaintiffs Reply to Defendant’s Motion to
Vacate Default Judgment in which the Superior Court
Clerk received the Affidavit but did not file instead
labeling the reply as miscellaneous. Concomitantly, had
the clerk correctly filed defendant’s motion in opposition it
would have taken into account valuable witness affidavits
and evidence of my residency, which would have
corroborated your defendant’s non-service issue. Please
refer to Clerk’s notice transaction ID- CHC2018223514.
The record would reflect these defects. I also provided my
state issued identification(s) outlining my current
addresses) in New Jersey and California that was also left
off the record when the Clerk labeled them as
miscellaneous and left it off the record. In support of my
claim that would have entitled me to relief, I submitted
evidence of my previous years tax returns and addresses,
that 853 Empire Boulevard in Brooklyn New York was a
previous address of more than 6 years ago. Also provided
was a copy of defendant’s January 2, 2018 Bankruptcy
Petition reflecting 212 78th Street, North Bergen as my
primary address in which Plaintiff claims but did not
provide proof that 853 Empire Boulevard, Brooklyn, New
York was used not as a previous address.
Even more, Elaine Cox, a lifelong resident and
leaseholder for 853 Empire Boulevard, Brooklyn, New
York 11213, attested that she does not know a “Neville
Cox”.
a. Further, the Writ was not served in
accordance with Rule 4^4-3(b) or “all
writs and process to enforce a judgment or
order shall be served by the sheriff.id.
b. The judgment or order is void. “Neville
Cox” was not a person authorized to
accept service.

9
II.
The Trial Court abused its discretion in failing to
vacate the default judgment on the grounds of excusable
neglect pursuant to R. 4:50-1(a).
The term “excusable neglect” has been defined as
excusable carelessness “attributable to an honest mistake
that is compatible with due diligence or reasonable
prudence.” Mancini v. E.D.S.. 132 N.J. at 335.
The trial court erroneously concluded that Cox did
not establish excusable neglect based on his claims that
service was defective and, thus, the Court is not with
personal jurisdiction in this action. The respondent
claimed to have served Cox through a stranger that
conveniently has the last same last name as Cox in this
particular case.
Specifically, at trial court respondent did not
provide any documentation to support allegations of debt
or whether Cox received notice of the action or not. On
April 23, 2018, I made a transcript request. On the same
day, according to the Appellate Court transcript
Coordinator, Marie Sosa, there are no transcripts of the
hearings available for review, thereby no testimony or
anything was entered upon the record. Please refer to
email dated April 23, 2018. “In the face of [none] service,
Cox’s actions does qualify as ‘excusable neglect’ as that
term is contemplated by R. 4^50-1(a) or the applicable case
law.”
The Court was pointing out what legal maneuvers
of federal law not presented as though had federal claims
been presented the outcome would have been favorable to
me. See Page 9-10 of the Court Transcript of Motion and
Decision dated October 24, 2019 initiating time noted
10:20am 11(13-25; 1'17.
However, what exactly must be pleaded to establish
a federal question is a matter of considerable uncertainty
in many cases. It is no longer the rule that, when federal
law is an ingredient of the claim, there is a federal

10
question. Such was the rule derived from Osborn v. Bank
of the United States. 22 U.S. (9 Wheat.) 738
(1824). See Franchise Tax Board v. Construction Laborers
Vacation Trust. 463 U.S. 1 (1983); Merrell Dow
Pharmaceuticals. Inc, v, Thompson. 478 U.S. 804 (1986).
Perhaps Justice Cardozo presented the most
understandable line of definition, while cautioning that
“Wo define broadly and in the abstract ‘a case arising
under the Constitution or laws of .the United .States’ has
hazards [approaching futility]. Gullv v. First National
Bank in Meridian. 299 U.S. 109. 117 (1936).
This Supreme Court has declared, when
interpreting pro se papers, the Court should use common
sense to determine what relief the party desires. S.E.C. v.
Elliott, 953 T.2d 1560. 1582 (llth Cir. 1992). See also,
United States v. Miller. 197 F.3d 644, 648 (3rd Cir.
1999) (Court has special obligation to construe pro se
litigants' pleadings liberally); Poling v. K. Hovnanian
Enterprises. 99 F.Supp.2d 502, 506-07 (D.N.J. 2000).
I have the right to submit a pro se emergency
pleading even though my emergency pleadings may be
inartfully drawn, if the court can reasonably read and
understand it, See, Vega v. Johnson. 149 F.3d 354 (5th
Cir. 1998). the Court shall go to particular pains to protect
pro se litigants against consequences of technical errors if
injustice would otherwise result and in this case injustice
will certainly result should I not be allowed to stop the
sale of my residence and this Court allow it under suspect
service practices and based on law that the Court knew
and based its determination on Federal law that the Court
claims was not added to my pro se pleadings. U.S. v.
Sanchez. 88 F.3d 1243 (D.C.Cir. 1996).
The court erroneously denied the motion based on
Rule 4:50-1(a), which requires proof of excusable neglect
and a meritorious defense. Defendant, in effect, moved to
vacate the -default judgment pursuant to Rule 4;50-l(d),

11
claiming that the judgment is void for lack of personal
jurisdiction due to defective service.
A motion pursuant to Rule 4:50-1(d) does not
require proof of excusable neglect and a meritorious
defense. See Jameson v. Great Atl. & Pac. Tea Co.. 363
N.J. Super. 419, 425 (App. Div. 2003), certif. denied, 179
N.J. 309 (2004). Rather, such a motion requires proof that
the judgment is void for the lack of personal jurisdiction
due to .defective service, id.
A motion to vacate a judgment that "is void and,
therefore, unenforceable ... is a particularly worthy
candidate for relief (R. 4-50-1(d)) provided that the time
lapse [between the entry of the judgment and the motion
to vacate the judgment] is not unreasonable and an
innocent third party's rights have not intervened:" Bank v.
Kim. 361 N.J. Super. 331, 336 (App. Div. 2003) (citing
Berger v. Paterson Veterans Taxi Serv.. 244 N.J. Super.
200, 205 (App. Div. 1990); Coryell. L.L.C. v. Currv. 391
N.J. Super. 72, 80 (App. Div. 2006). All doubt should be
resolved in favor .of the party seeking relief. Arrow Mfg.
Co. v. Levinson. 231 N.J. Super. 527, 534 (App. Div. 1989)
(citing Foster v. New Albany Mach. & Tool Co.. 63 N.J.
Super. 262, 269*70 (App. Div. I960)).
Here, only eight months had lapsed before
Appellant filed the motion to vacate judgment. For
motions based on Rule 4^50* 1(a), (b) and (c), the Rule bars
relief when the motion is filed “more than one year after
the judgment, order or proceeding was entered or taken.”
((Motions based on other subsections of Rule 4:50*1 are
not subject to the one-year bar. See Garza v. Paone. 44
N.J. Super. 553, 557*58 (App. Div. 1357).
A motion to vacate judgment must be filed within a
reasonable time, which may be less or greater than one
year.)). In this action, only eight months had passed before
appellant filed the motion to vacate and not the outermost
time limit.

12
The Rule does not mean that it is reasonable to file
such a motion within one year; the one-year period
represents only the outermost time limit for the filing of a
motion based on Rule 4:50-1(a), (b) or (c). All Rule 4:50
motions must be filed within a reasonable time, which, in
some circumstances, may be less than one year from entry
of the order in question. See Bascom Corn, v. Chase
Manhattan Bank. 363 N.J. Super. 334, 340 (App. Div.
2003) (holding that Rule 4:50-2 “requires all motions
under R[ule] 4:50-1 to be brought within a reasonable
time”), certif. denied, 178 N.J. 453, cert, denied, 542 U.S.
938, 124 S. Ct. 2911, 159 L. Ed. 2d 816 (2004); Jackson
Constr. Co. v. Ocean Two.. 182 N.J. Super. 148, 161, 3
N.J. Tax 296, 309.
The facts of this action supports eight months as a
reasonable amount of time when service of process has not
been affected and is also within the outermost time limit,
and another fact is, no innocent third, Appellant’s rights
to due process—matters testified to were never entered
upon the record because it was never transcribed nor were
a third party's rights intervened, thereby the court erred
in its determination denying appellant’s motion to vacate.

13
CONCLUSION
The judgment against Appellant Petitioner was void.
Service of Process was defective and the Court erred, as a
matter of law, in declining to vacate it. Therefore, the
petition for a writ of certiorari should be granted.
Respectfully submitted,
NORMAN D. COX JR
Pro Se Petitioner
212 78th Street
North Bergen, NJ 07047

Date: NOVEMBER 15, 2019

